LZ
I

C@OCKLE

7 E-Mail Address:
Lega 1 Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

YSLETA DEL SUR PUEBLO, THE TRIBAL COUNCIL,
THE TRIBAL GOVERNOR MICHAEL SILVAS
or his SUCCESSOR,
Petitioners,
v.
STATE OF TEXAS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 6791 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 9th day of October, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska

My Comm. Exp. September 5, 2023
Notary Public

 

Affiant 40192
